Report No. D-2009-120                September 30, 2009




          Agreed-Upon Procedures for Reviewing
        the FY 2009 Civilian Payroll Withholding Data
                and Enrollment Information
 Additional Copies
 To obtain additional copies of this report, visit the Web site of the Department of
 Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
 Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703)
 604-8932.

 Suggestions for Audits
 To suggest ideas for or to request future audits, contact the Office of the Deputy
 Inspector General for Auditing at (703) 604-9142 (DSN 664-9142), fax (703) 604-8932
 or by mail:

                     ODIG-AUD (ATTN: Audit Suggestions)
                     Department of Defense Inspector General
                     400 Army Navy Drive (Room 801)
                     Arlington, VA 22202-4704




Acronyms and Abbreviations used in the Report and the Attachments
ANG                  Air National Guard
APP                  Agency Payroll Provider
CSRS                 Civil Service Retirement System
DFAS                 Defense Finance and Accounting Service
DOE                  Department of Energy
VA                   Department of Veterans’ Affairs
EPA                  Environmental Protection Agency
FEGLI                Federal Employees Group Life Insurance
FEHB                 Federal Employee Health Benefits
FERS                 Federal Employees Retirement System
HHS                  Health and Human Services
ODO                  Other Defense Organizations
OPF                  Official Personnel File
OPM                  Office of Personnel Management
RITS                 Retirement and Insurance Transfer System
                                       INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704



                                                                            September 30, 2009


MEMORANDUM FOR DISTRIBUTION



SUBJECT: Agreed-Upon Procedures for Reviewing the FY 2009 Civilian Payroll Withholding
         Data and Enrollment Information (Report No. D-2009-120)


We are providing this final report for your information and use.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868 (DSN 329-5868).



                                   fo~                  a. mcwJv
                                   Patricia A. Marsh, CPA
                                 Assistant Inspector General
                                 Defense Business Operations
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE
  (COMPTROLLER)/CHIEF FINANCIAL OFFICER
UNDER SECRETARY OF DEFENSE
  FOR PERSONNEL AND READINESS
ASSISTANT SECRETARY OF THE ARMY
  (FINANCIAL MANAGEMENT AND COMPTROLLER)
ASSISTANT SECRETARY OF THE AIR FORCE
  (FINANCIAL MANAGEMENT AND COMPTROLLER)
CHIEF, NATIONAL GUARD BUREAU
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
INSPECTOR GENERAL, DEPARTMENT OF ENERGY
INSPECTOR GENERAL, DEPARTMENT OF HEALTH AND HUMAN SERVICES
INSPECTOR GENERAL, DEPARTMENT OF VETERANS’ AFFAIRS
INSPECTOR GENERAL, ENVIRONMENTAL PROTECTION AGENCY
INSPECTOR GENERAL, OFFICE OF PERSONNEL MANAGEMENT
              Report No. D-2009-120 (Project No. D2009-D000FP-0097.000)
                                  September 30, 2009

             Results in Brief: Agreed-Upon
             Procedures for Reviewing the FY 2009
             Civilian Payroll Withholding Data and
             Enrollment Information

What We Did                                      What We Found
Our objective was to perform the                 Of the 408 Official Personnel Files
Agreed-Upon Procedures (AUPs)                    reviewed, we determined that 24 Official
detailed in the Office of Management and         Personnel Files had 32 unresolved benefit
Budget Bulletin No. 07-04, “Audit                discrepancies that resulted in 67 total
Requirements for Federal Financial               differences reported in the steps of the
Statements,” August 25, 2008, as                 AUPs. The 67 differences occurred
amended, to assist the Office of Personnel       because the documentation was not
Management (OPM) in assessing                    current and, therefore, did not support
whether Health Benefits, Life Insurance,         DFAS pay and withholding amounts.
and Retirement contributions and
withholdings, and enrollment information         In addition, we identified differences
that Defense Finance and Accounting              in amounts reported to OPM for the
Service (DFAS) submitted to OPM were             Department of Veterans’ Affairs Federal
reasonable and accurate. We assisted             Employees Group Life Insurance
them by performing agreed-upon                   (FEGLI) Basic coverage that exceeded
procedures agreed to by the OPM Chief            the five-percent reporting threshold.
Financial Officer and OPM Inspector              DFAS is working to resolve this issue.
General.
                                                 We also identified a difference in
We conducted this attestation                    amounts reported to OPM for Other
engagement in accordance with generally          Defense Organizations FEGLI Option C
accepted government auditing standards,          coverage that exceeded the two-percent
which incorporate financial audit and            reporting threshold criteria. This
attestation standards established by the         difference was primarily attributable to
American Institute of Certified Public           retroactive adjustments.
Accountants. The sufficiency of these
procedures is solely the responsibility
of the OPM Chief Financial Officer and
Inspector General. Consequently, we
make no representation regarding the
sufficiency of the procedures either for
the purpose for which this report has
been requested or for any other purpose.




                                             i
Table of Contents

Results in Brief

Independent Auditor’s Report on Agreed-Upon Procedures for Reviewing the
   FY 2009 Civilian Payroll Withholding Data and Enrollment Information

Attachment: Agreed-Upon Procedures Performed and Results
Attachment: Agreed-Upon Procedures
Performed and Results
This section contains the OPM agreed-upon procedures and the results of completing
those procedures.

Overall Procedure
Obtain the Agency Payroll Provider’s (APP) September 2008 and March 2009
Semiannual Headcount Report submitted to OPM and a summary of Retirement and
Insurance Transfer System (RITS) submissions for September 2008 and the current fiscal
year. For Retirement, Health Benefits, and Life Insurance select a total of three RITS
submissions for September 2008 and the current fiscal year; two will coincide with the
September 2008 and March 2009 Semiannual Headcount Report. Obtain payroll
information for the periods covered by the RITS submissions selected.

Procedure 1.
Compare RITS submission data with payroll information by performing the following
procedures (Note: For cross-servicing agencies, if the internal controls are the same for
all agencies serviced, it is only necessary to perform this procedure for one agency.):

Procedure 1.a.
Recalculate the mathematical accuracy of the payroll information.

Procedure 1.b.
Recalculate the mathematical accuracy of each RITS submission for the payroll
information selected in step 1.a.

Procedure 1.c.
Compare the employee withholding information at the aggregate level for Retirement,
Health Benefits, and Life Insurance (as adjusted for reconciling items) shown on the
payroll information obtained in step 1.a. to the related amounts shown on the RITS
submission for the corresponding period.

Report any differences for each of the Retirement, Health Benefits, and Life Insurance
(categories) for step 1.c. that are over one percent of the aggregate amount reported for
each of the three categories. Obtain from management a management official name,
an explanation, telephone number, and an email address for the differences above the
one percent threshold.

Results
There were no differences greater than one percent for this comparison.




Attachment
Page 1 of 11
Procedure 2.
(See Procedures 2.a.-j.)

Procedure 2.a.
Randomly select a total of 25 individuals who were in the payroll system for all three of
the RITS submissions selected above that meet all the following criteria:

          covered by the Civil Service Retirement System (CSRS) or the Federal
           Employees Retirement System (FERS);
          enrolled in the Federal Employees Health Benefit Program (FEHB);
          covered by Basic Life Insurance; and
          covered by at least one Federal Employees’ Group Life Insurance (FEGLI)
           optional coverage (Option A, B or C).

Procedure 2.b
Obtain the following documents, either in electronic or hard copy format, from the
Official Personnel File (OPF) for each individual selected in step 2.a. Hard copies can
be originals or certified copies.

          All Notifications of Personnel Actions (SF-50) covering the pay periods in the
           RITS submissions chosen;
          The Health Benefits Election Form (SF-2809) covering the pay periods in the
           RITS submissions chosen or, if applicable, obtain a report (via the agency
           personnel office) from the agency’s automated system that allows participants
           to change benefits, (e.g.,, Employee Express), for any Health Benefits
           transactions in that system for the individuals selected in step 2.a. (note: a
           new SF-2809 is needed only if an employee is changing health benefit plans,
           therefore, the form could be many years old); and
          The Life Insurance Election Form (SF-2817) covering the pay periods in the
           RITS submission chosen (note: a new SF-2817 is needed only if an employee
           is changing life insurance coverage, therefore the form could be many years
           old).

Procedure 2.b.i.
For Health Benefits, compare date of transaction with date on the certified copy of the
SF-2809 or the agency’s automated system report obtained above to identify whether the
health benefit information to be used in the step 2.f. covers the pay periods in the RITS
submissions chosen.

Results
We identified one missing document from the Air National Guard (ANG), four from
Other Defense Organizations (ODO), one from VA, and four from the EPA. DOE
auditors identified one missing document from DOE, and HHS auditors identified eight
missing documents from HHS. The following table identifies the specific documents
missing from the respective agencies.
Attachment
Page 2 of 11
             Missing Documents Segregated by Agency
          AGENCY        SF-50           SF-2809                  SF-2817
          ANG           1
          ODO           1               1                        2
          VA                            1
          EPA                           2                        2
          DOE                                                    1
          HHS                           5                        3

Procedure 2.c.
For each individual selected in step 2.a., compare the base salary used for all payroll
purposes and upon which withholdings and contributions generally are based to the base
salary reflected on the employee’s SF-50. Report any differences resulting from this step
and obtain management’s explanation for the differences.

Results
We found one difference for ANG and one for ODO. DOE auditors identified two
differences for DOE. The applicable SF-50s were missing.

Procedure 2.d.
For Retirement for each individual selected in step 2.a., compare the retirement plan code
from the employee’s SF-50 to the plan code used in the payroll system. Report any
differences resulting from this step and obtain management’s explanation for the
differences.

Results
We found one difference for Army, ± one for ANG, and one for ODO. The correct
SF-50s were missing or an erroneous code was used on the SF-50.

Procedure 2.e.
For each individual selected in step 2.a., calculate the retirement amount to be withheld
and contributed for the plan code from the employee’s SF-50, by multiplying the base
salary from the employee’s SF-50 by the official withholding and contribution rates
required by law. Compare the calculated amounts to the actual amounts withheld and
contributed for the retirement plan. Report any differences resulting from this step and
obtain management’s explanation for the differences.

Results
We found one difference for Army, ± one for ANG, and one for ODO. The correct
SF-50s were missing or an erroneous code was used on the SF-50.




Attachment
Page 3 of 11
Procedure 2.f.
For Health Benefits for each individual selected in step 2.a, compare the employee
withholdings and agency contributions to the official subscription rates issued by OPM
for the plan and option elected by the employee, as documented by a Health Benefits
Election Form (SF-2809) in the employee’s OPF or automated system that allows the
participant to change benefits (e.g., Employee Express). Report any differences resulting
from this step and obtain management’s explanation for the differences.

Results
We found one difference for ODO, one for VA, and two for EPA. HHS auditors
identified five differences. The applicable SF-2809s were missing.

Procedure 2.g.
For Life Insurance for each individual selected in step 2.a, confirm that Basic life
Insurance was elected by the employee by inspecting the Life Insurance Election Form
(SF-2817) documented in the employee’s OPF. Report any differences resulting from
this step and obtain management’s explanation for the differences.

Results
We did not find any differences for this comparison.

Procedure 2.h.
For each individual selected in step 2.a, calculate the withholding and contribution
amounts for Basic Life Insurance using the following:

          For employee withholdings: Round the employee’s annual base salary up to
           the nearest thousand dollars and add $2,000. Divide this total by 1,000 and
           multiply by the rate required by law.
          For agency contributions: Divide the employee withholdings calculated above
           by two.

Compare the calculated employee withholdings and agency contributions to the actual
amounts withheld and contributed for Basic Life Insurance. Report any differences
resulting from this step and obtain management’s explanation for the differences.

Results
We found one difference for ANG and one for ODO. The applicable SF-50s or SF-2817s
were missing.

Procedure 2.i.
Also, for Life Insurance for each individual selected in step 2.a., compare optional
coverage elected as documented on the SF-2817 in the employee’s OPF to the optional
coverage documented in the payroll system. Report any differences resulting from this
step and obtain management’s explanation for the differences.

Attachment
Page 4 of 11
Results
We identified one difference for the Army, ± one for ANG, three for ODO, and two for
EPA. DOE auditors identified one difference for DOE, and HHS auditors identified three
differences for HHS. The differences involved retroactive corrections and missing
SF-2817s.

Procedure 2.j.
For each individual selected in step 2.a., calculate the withholding amounts for optional
life insurance using the following:

          For Option A: Locate the employee’s age group using the age groups provided
           for Option A in the FEGLI Program Booklet. The withholding amount to be
           used is the rate listed in the FEGLI Program Booklet for that age group.
           Compare the calculated amount to the amount withheld for Option A Life
           Insurance. Report any differences resulting from this step and obtain
           management’s explanation for the differences.

          For Option B: Inspect the SF-2817 to obtain the number of multiples chosen
           for Option B. Locate the employee’s age group using the age groups provided
           for Option B in the FEGLI Program Booklet. Round the employee’s annual
           rate of basic pay up to the next 1000, divide by 1000, and multiply by the rate
           for the respective age group. Multiply this amount by the number of multiples
           chosen for Option B Life Insurance. Compare the calculated amount to the
           amount withheld for Option B Life Insurance. Report any differences
           resulting from this step and obtain management’s explanation for the
           differences.

          For Option C: Inspect the SF-2817 to obtain the number of multiples chosen
           for Option C. Locate the employee’s age group using the age groups provided
           for Option C in the FEGLI Program Booklet. Multiply the rate for the age
           group by the number of multiples chosen for Option C Life Insurance.
           Compare the calculated amount to the amount withheld for Option C Life
           Insurance. Report any differences resulting from this step and obtain
           management’s explanation for the differences.

Results
We identified one difference for the Army, ± one for ANG, three for ODO, and two for
EPA. DOE auditors identified one difference. HHS auditors identified three differences.
The differences involved retroactive corrections and missing SF-2817s.

Procedure 3.
Randomly select a total of 10 employees who have no Health Benefits withholdings from
the payroll information corresponding to the three RITS submissions selected above and
perform the following for each employee selected.


Attachment
Page 5 of 11
Procedure 3.a.
Obtain SF-2809s covering the pay periods in the RITS submissions chosen, either in
electronic or hard copy format, from the selected employee’s OPF or, if applicable,
obtain a report (via the agency personnel office ) from the agency’s automated system
that allows participants to change benefits, (e.g., Employee Express), for any Health
Benefit transactions in that system for the individuals selected. Hard copies can be
originals or certified copies. Inspect the documentation (that is, SF-2809 or the agency’s
system-generated report) to identify whether health benefits coverage was not elected.
This can be identified in the following ways:

              absence of an SF-2809 in the OPF and no election of coverage made
               through the agency’s automated system that allows participants to change
               benefits (e.g., Employee Express); or
              an SF-2809 in the OPF with Section E checked (indicating cancellation
               of coverage) and no later election of coverage through the agency’s
               automated system that allows participants to change benefits
               (e.g., Employee Express); or
              cancellation of coverage through the agency’s automated system that
               allows participants to change benefits (e.g., Employee Express) and no
               later election of coverage with an SF-2809.

Procedure 3.b.
Compare the result in step 3.a. to the RITS submissions. Report any differences resulting
from this step and obtain management’s explanation for the differences.

Results
We identified one difference for ODO. The available SF-2809 indicated health benefits
coverage, but the payroll information did not show any coverage. An explanation for this
difference was not provided to the auditors.

Procedure 4.
Randomly select a total of 10 employees who have no Life Insurance withholdings from
the payroll information corresponding to the three RITS submissions selected above and
perform the following for each employee selected.

Procedure 4.a.
Obtain the SF-2817s covering the pay periods in the RITS submissions chosen, either in
electronic or hard copy format, from the selected employee’s OPF. Hard copies can be
originals or certified copies. Inspect the SF-2817 to identify that the employee waived or
cancelled Basic Life Insurance coverage.

Procedure 4.b.
Compare the result in step 4.a. to the RITS submissions. Report any differences
resulting from this step and obtain management’s explanation for the differences.

Attachment
Page 6 of 11
Results
We identified one difference for Army, ± one for Navy, one for the Army National Guard,
and one for EPA. The waivers were missing, the waivers were signed after our sample
pay period, or personnel processed a retroactive adjustment.

Procedure 5.
Calculate the headcount reflected on the September 2008 and March 2009 Semiannual
Headcount Report selected, as follows.

Procedure 5.a.
Obtain existing payroll information (from step 1.a.) supporting each Supplemental
Semiannual Headcount report. If existing payroll data is not available, obtain a payroll
system query that summarizes detailed payroll data supporting each Supplemental
Semiannual Headcount Report, as follows:

              Benefit Category (see Semiannual Headcount Report).
              Dollar Amount of withholdings and contributions.
              Number Enrolled (deductions made/no deductions).
              Central Personnel Data File Code.
              Aggregate Base Salary.

Procedure 5.b.
Recalculate the Headcount reflected on each Semiannual Headcount Report. If an
electronic file is not available, a suggested method of recalculating the Headcount is as
follows: (1) estimate the number of employees per payroll register page by counting the
employees listed on several pages, (2) count the number of pages in the payroll register,
and (3) multiply the number of employees per page by the number of pages, or count
(using a computer audit routine) the number of employees on the payroll data file for the
period.

Procedure 5.c.
Compare the payroll information obtained in step 5.a. and the calculated headcount from
step 5.b. to the information shown on each respective Semiannual Headcount Report.

Procedure 5.d.
Report any differences (i.e., gross rather than net) greater than two percent between the
headcount reporting on each respective agency Semiannual Headcount Report and
payroll information from step 5.a. and the calculated Headcount from step 5.b. Obtain
from management a management official name, telephone number, an e-mail address,
and an explanation for the differences.

Results
There were no differences greater than two percent for this comparison.


Attachment
Page 7 of 11
Procedure 6.
Calculate employer and employee contributions for Retirement, Health Benefits, and Life
Insurance as follows:

Procedure 6.a.
Calculate Retirement withholdings and contributions for the three pay periods selected in
step 1.a., as follows:

Procedure 6.a.i.
Multiply the CSRS and FERS payroll base by the withholding and employer contribution
rates required by law.

Procedure 6.a.ii.
Compare the calculated totals from step 6.a.i. to the related amounts shown on the RITS
submissions. Report any differences (i.e., gross rather than net) between the calculated
amounts and the amounts reported on the RITS submissions greater than five percent of
the amounts on the RITS submission, and obtain management’s explanation for the
differences.

Results
There were no differences greater than five percent for this comparison.

Procedure 6.b.
Calculate employee withholdings and employer contributions for Health Benefits for the
three pay periods selected in step 1.a., as follows:

Procedure 6.b.i.
Multiply the number of employees enrolled in each Health Benefits plan and plan option
by the employee withholdings and employer contributions for the plan and option.

Procedure 6.b.ii.
Sum the totals in step 6.b.i. and compare the result with the Health Benefit withholding
and contribution amounts shown on the RITS submissions. Report any differences
(i.e., gross rather than net) between the calculated amounts and the amounts reported on
the RITS submissions greater than five percent of the amounts on the RITS submission,
and obtain management’s explanation for the differences.

Results
There were no differences greater than five percent for this comparison.

Procedure 6.c.
Calculate the Basic Life Insurance employee withholdings and employer contributions
for the three pay periods selected in step 1.a., as follows:


Attachment
Page 8 of 11
Procedure 6.c.i.
Obtain a payroll system query from APP personnel to obtain the total number of
employees with Basic Life Insurance coverage and the aggregate annual basic pay for all
employees with Basic Life Insurance.

Procedure 6.c.ii.
For employee withholdings: Add the product of 2,000 times the number of employees
with Basic Life Insurance coverage from step 6.c.i above to the aggregate annual basic
pay for all employees with Basic Life Insurance from step 6.c.i above to calculate the
estimated total Basic Life Insurance coverage. Divide this calculated total by 1,000 and
multiply by the withholding rate required by law. The Life Insurance withholding rates
can be found in the FEGLI Program Booklet on OPM’s website.

Procedure 6.c.iii.
Compare the result in step 6.c.ii. to the withholdings for Basic Life Insurance coverage
reported on the RITS submission. Report any difference (i.e., gross rather than net)
between the estimate and the amount of withholdings reported on the RITS submission
greater than five percent of the amounts on the RITS submission, and obtain
management’s explanation for the difference.

Results
There were no differences greater than five percent with the exception of our calculation
for VA. This difference amounted to $2.6 million (261.3 percent). DFAS comments to
the draft report stated that the difference occurred because the audit files were missing
data fields for market pay. DFAS stated it would provide the information and that a
system change request has been initiated to add these data fields to future audit files.
However, the auditors will not be able perform these procedures again before the
October 1, 2009, report deadline. DOD auditors will continue to work with DFAS to
resolve this difference.

Procedure 6.c.iv.
For agency contributions: Divide the results of step 6.c.ii. by two—this approximates
agency contributions, which are one-half of employee withholdings. Compare this result
to the amount reported on the RITS submission. Report any differences (i.e., gross rather
than net) between the estimated amount and the actual amount reported on the RITS
submission greater than five percent of the amounts on the RITS submission, and obtain
management’s explanation for the differences.

Results
There were no differences greater than five percent except for VA. This difference
was $1.3 million or 261.11 percent. DFAS comments to the draft report stated that the
difference occurred because the audit files were missing data fields for market pay.




Attachment
Page 9 of 11
DFAS stated it would provide the information and that a system change request has
been initiated to add these data fields to future audit files. However, the auditors will not
be able perform these procedures again before the October 1, 2009, report deadline.
DOD auditors will continue to work with DFAS to resolve this difference.

Procedure 6.d.
Calculate the Option A, Option B and Option C Life Insurance coverage withholdings for
the three pay periods selected by using detail payroll reports used to reconcile the RITS
reports in Step 1. In addition to the information used for step 1, the reports should
include the employee's date of birth, annual rate of basic pay, and number of multiples
selected for Option B and C. Note: While similar to step 2.j., the calculation at this step
is for the entire amount reported on the RITS submissions for the three pay periods
selected, as opposed to the sample of 25 employees in step 2.j.

Procedure 6.d.i.
Multiply the number of employees in each age group by the appropriate rate for Option A
in accordance with the rates for age groups provided in the FEGLI Program Booklet.

Procedure 6.d.ii.
Compare the result in step 6.d.i. to the amounts for Option A reported on the RITS
submissions. Report any differences (i.e., gross rather than net) greater than two percent
of the amounts on the RITS submission, and obtain management’s explanation for the
differences.

Results
There were no differences greater than two percent for this comparison.

Procedure 6.d.iii.
Segregate the reports for Option B and Option C insurance into the age groups shown in
the FEGLI Program Booklet. For Option B, round the employee's annual rate of basic
pay up to the next 1000, divide by 1000, multiply by the rate for the age group, multiply
this by the number of multiples:

(Annual rate of basic pay (rounded up) /1000*rate*multiples).

For Option C, multiply the rate for the age group by the number of multiples chosen for
each employee.

Procedure 6.d.iv.
Compare the result in step 6.d.iii. to the amounts for Option B and Option C,
respectively, reported on the RITS submissions. Report any differences (i.e., gross




Attachment
Page 10 of 11
rather than net) greater than two percent of the amounts on the RITS submission for
Option B or Option C, and obtain management’s explanation for the differences.

Results
There were no differences greater than two percent with the exception of our
Option C calculation for Other Defense Organizations. This difference amounted
to $2,290 (4.01 percent) and is primarily attributable to retroactive adjustments.




±
 Documentation was not corrected until after our testing disclosed the errors. Therefore,
we are reporting these sample items as differences.


Attachment
Page 11 of 11
